HHS/OIG, Audit - "Review of Pathology Services Claimed by Urology Tyler,
P.A. Tyler, Texas From May Through December 2004," (A-05-05-00037)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Pathology Services
Claimed by Urology Tyler, P.A. Tyler, Texas From May Through December 2004," (A-05-05-00037)
June 28, 2007
Complete
Text of Report is available in PDF format (1.69 mb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of our review were to (1) determine whether
Urology Tyler (the Practice) claimed reimbursement for pathology laboratory
services in accordance with Medicare Part B medical necessity and documentation
requirements from May through December 2004 and (2) analyze the Practices
utilization patterns for pathology services.  The Practices claims for
pathology laboratory services generally complied with Medicare Part B medical
necessity and documentation requirements.  We identified one exception that was
improperly billed and paid due to a clerical error, which was corrected during
our audit.  We noted an increase in the number of prostate-related pathology
services requested and performed after the Practice opened its own laboratory.
In addition, the Medicare carrier reimbursed the Practice for more units per
claim, on average, than it reimbursed other providers for the same pathology
service.  This report contains no recommendations.